Appendix D: Judgment

Case 3:16-cr-01332-AJB Document 135 Filed 09/03/19 PagelD.697 Page 1 of 5
AO 245B {CASDRev. 08/13) Judgment in a Criminal Case

,--·

to

d
UNITED STATES DISTRICT

SOUTHERN DISTRICT OF CALIFO , IA

,

~

FILED
SEP O3 2019

1
t
~

G _ ,~ ,
'
C~E
(For Offenses Conup~'tDIE6NA.lltcf!M6vdilfbif.~~~ ~

CORRECTED

UNITED STATES OF AMERICA

V.

L~

CYNTHIA LOZANO (03)
Case Number:

··-·- ---~.:..;.-·•

l 6CR1332-AJB-03

Jeremy Delicino
Defendant's Attorney

REGISTRATION NO.

92847308

D THE DEFENDANT:
~

pleaded guilty to count(s)

0

was found guilty on count(s)

One through Fifty-One

after a olea of not euiltv.
Accordin_g}y, the defendant is adjudged guilty of such count(s), which involve the following offense(s):

Title & Section
18:371
18:287
18:1343
18:1341
18:641
18:1028

Count
Numbeais)
1
2-15
16-17
18-29
30-37
38-51

Nature of Offense
Conspiracy
False Claims
Wire Fraud
Mail Fraud
Theft of Government Property
Aggravated Identity Theft

The defendant is sentenced as provided in pages 2 through
5
ofthis judgment.
----"--The sentence is imposed pursuant to the Sentencing Reform Act of 1984.

0

The defendant has been found not guilty on count(s)

D

Count{s)

~

Assessment : ($100.00 as to each count)

is

dismissed on the motion of the United States.

Total Assessment - $5,100.00

IZI

No fine

D Forfeiture pursuant to order filed
, included herein.
IT IS ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the defendant shall notify the court and United States Attorney of any
material change in the defendant's economic circumstances.

16CR1332-AJB-03

Case 3: 16-cr-01332-AJB Document 135 Filed 09/03/19 PagelD.698 Page 2 of 5
AO 245B (CASD Rev. 08/1 3) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CYNTIIlA LOZANO (03)
16CR1332-AJB-03

Judgment - Page 2 of 5

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a term of:
SEVENTY (70) MONTHS - As to each Counts 16-29, Concurrent
SIXTY (60) MONTHS - As to each Counts 1-15 and 30-37, Concurrent and Concurrent with Counts 16-29.
TWENTY-FOUR (24) MONTHS - As to each Counts 38-51, Concurrent and Consecutive to Counts 1-37.
SENTENCE IMPOSED IN CASE#l3cr1354-AJB IS TO RUN CONSECUTIVE TO THE SENTENCE IMPOSED IN CASE
#13cr1354-AJB.

□

Sentence imposed pursuant to Title 8 USC Section 1326(b).

181

The court makes the following recommendations to the Bureau of Prisons:
The court recommends custody be served in the Western Region, Victorville FCC for purposes of
family visitation.
The court recommends that the defendant not be transferred until after 08/25/17.

□

The defendant is remanded to the custody of the United States Marshal.

□

The defendant shall surrender to the United States Marshal for this district:

□

D

at

--------- A.M.

□

as notified by the United States Marshal.

on

------------------

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□

on or before

D

as notified by the United States Marshal.

□

as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:
Defendant delivered on

at

-------------

- - -- -- - - -- - - ,

to

----------------

with a certified copy of this judgment.

UNITED STATES MARSHAL
16CR1332-AJB-03

Case 3:16-cr-01332-AJB Document 135 Filed 09/03/19 PagelD.699 Page 3 of 5
AO 245B (CASD Rev. 08/13) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CYNTHIA LOZANO (03)
l 6CR1332-AJB-03

Judgment - Page 3 of 5

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a tenn of:
THREE (3) YEARS -As to each count, all to run Concurrent.

The defendant shall report to the probation office in the district to which the defendant is released within 72 hours of release from the
custody of the Bureau of Prisons unless removed from the United States.
The defendant shall not commit another federal, state or local crime.
For offenses committed on or after September 13, 1994:

The defendant shall not illegally possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days ofrelease from imprisonment and at least two periodic drug tests
thereafter as determined by the court. Testing requirements will not exceed submission of more than 4 drug tests per month during the
term of supervision, unless otherwise ordered by court.
The above drug testing condition is suspended, based on the court's determination that the defendant poses a low risk of future
substance abuse. (Check, ifapplicable.)
The defendant shall not possess a fireann, ammunition, destructive device, or any other dangerous weapon.
The defendant shall cooperate in the collection ofa DNA sample from the defendant, pursuant to section 3 of the DNA Analysis
Backlog Elimination Act of 2000, pursuant to 18 USC section 3583(aX7) and 3583(d).
The defendant shall comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et
seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which he or she
resides, works, is a student, or was convicted of a qualifying offense. (Check if applicable.)
The defendant shall participate in an approved program for domestic violence. (Check ifapplicable.)

D
181

D
D

If this judgment imposes a fine or a restitution obligation, it shall be a condition of supervised release that the defendant pay any
such fine or restitution that remains unpaid at the commencement of the term of supervised release in accordance with the Schedule of
Payments set forth in this judgment.
The defendant shall comply with the standard conditions that have been adopted by this court. The defendant shall also comply
with any special conditions imposed.

STANDARD CONDITIONS OF SUPERVISION
1)
2)

3)
4)

5)
6)
7)

8)
9)

I 0)
11)

12)

13)

the defendant shall not leave the judicial district without the permission of the court or probation officer;
the defendant shall report to the probation officer in a manner and frequency directed by the court or probation officer;
the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
the defendant shall support his or her dependents and meet other family responsibilities;
the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other acceptable
reasons;
the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any controlled substance or
any paraphernalia related to any controlled substances, except as prescribed by a physician;
the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
the defendant shall not associate w[th any persons engaged in criminal activity and shall not associate with any person convicted of a felony,
unless granted permission to do so by the probation officer;
the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any contraband
observed in plain view of the probation officer;
the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;
the defendant shall not enter into any agreement to act as an infonner or a special agent ofa law enforcement agency without the permission of the
court; and
as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant's criminal record or
personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the defendant's compliance with
such notification requirement.

l 6CR1332-AJB-03

Case 3:16-cr-01332-AJB Document 135 Filed 09/03/19 PagelD.700 Page 4 of 5
AO 245B (CASO Rev. 08/ 13) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CYNTI-IlA LOZANO (03)
l 6CR1332-AJB-03

Judgment - Page 4 of 5

SPECIAL CONDITIONS OF SUPERVISION

1. Submit your person, property, residence, office or vehicle to a search, conducted by a United States
Probation Officer at a reasonable time and in a reasonable manner, based upon reasonable suspicion of
contraband or evidence of a violation of a condition of release; failure to submit to a search may be grounds
for revocation; the defendant shall warn any other residents that the premises may be subject to searches
pursuant to this condition.
2. Provide complete disclosure of personal and business financial records to the probation officer as
requested.
3 . Notify the Collections Unit, United States Attorney's Office, of any interest in property obtained, directly
Or indirectly, including any interest obtained under any other name, or entity, including a trust, partnership
or corporation until the fine or restitution is paid in full.
4. Notify the Collections Unit, United States Attorney's Office, before transferring any interest in property
owned, directly or indirectly, including any interest held or owned under any other name, or entity,
including a trust, partnership or corporation.
5. Be prohibited from opening checking accounts or incurring new credit charges or opening additional lines
of credit without approval of the probation officer.
6. Not enter or reside in the Republic of Mexico without permission of the court or probation officer.
7. Report all vehicles owned or operated, or in which you have an interest, to the probation officer.
8.

Comply and cooperate with all IRS directives regarding payment of restitution.

9. Only use/possess/acquire identification issued lawfully in true name.
I 0. Not prepare any tax returns for anyone else other than herself.

16CR1332-AJB-03

'

.
Case 3:16-cr-01332-AJB Document 135 Filed 09/03/19 PagelD.701 Page 5 of 5
AO 245B (CASD Rev. 08/13) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CYNTHIA LOZANO (03)

Judgment - Page 5 of 5

l 6CR1332-AJB-03

RESTITUTION
The defendant shall pay restitution in the amoWlt of

$228,727.93

unto the United States of America.

Pay restitution in the amoW1t determined by the U.S. Attorney's Office, through the Clerk, U.S. District Court.
Payment.
Restitution Amount:
$121,533.93 - I.R.S.

IRS-RACS
Attn: Mail Stop 6261, Restitution
333 W. Pershing Avenue
Kansas City, MO 64108
$107,194.00-H.U.D.
Housing Authority of Maricopa County
Attention Jesse Romero, Accountant
8910 N. 78th Avenue
Peoria, AZ 85345
(602)744-4500

During any period of incarceration the defendant shall pay restitution through the Inmate Responsibility
Program at the rate of 50% of the defendant's income, or $25.00 per quarter, whichever is greater. The
defendant shall pay the restitution during his supervised release at the rate of$250.00 per month.
These payment schedules do not foreclose the United States from exercising all legal actions, remedies, and
process available to it to collect the restitution judgment. Restitution is to be paid to the victims as identified by
the U.S. Attorney's Office.

16CR1332-AJB-03

